           Amtrak
Office of Inspector General

      EVALUATION REPORT E-08-02
         Public Funding Levels of
      European Passenger Railroads
             April 22, 2008
TABLE OF CONTENTS


EXECUTIVE SUMMARY                                                  ii


INTRODUCTION                                                       1


FINDINGS                                                           2


     Public Funding Levels of European Passenger Railroads


     1.    Organization of and Types of Public Funding
           to European Passenger Railroads                         2
     2.    European Use of “Off-balance sheet” funding             3
     3.    Public Funding Levels and Railroad Profitability        4

     Comparison of European Public Funding Levels to that of
     Amtrak

     4.    Public   Funding   between 1995 and 2003                5
     5.    Public   Funding   Levels for Infrastructure            6
     6.    Public   Funding   Levels for Passenger Services        7
     7.    Public   Funding   Levels Related to Network Size       8




LIST OF APPENDICES

I - Major Contributors to Report                                  11
II - Public Funding Levels of European Passenger Railroads (II)   12




                                       i
EXECUTIVE SUMMARY
      There have been numerous claims made about the relative financial
performance of European Passenger Train Operations and the amount of Public
Funding they require to remain operationally viable. This review examines the Public
Subsidies that have been provided for European Passenger Train Operations and
then compares these funding levels to that of Amtrak.

Overall Conclusions

      After examining a representative sample of European Passenger Train
Operations over a multi-year period, we found that:
   a) When all revenues and expenses for the entire passenger train system are
       taken into consideration, European Passenger Train Operations operate at a
       financial loss and consequently require significant Public Subsidies, and
   b) The average annual subsidies for European Passenger Train Operations are
       much higher than those for comparable Amtrak services.

Individual Findings

       The review of Public Funding for European Passenger Train Operations
provided the following findings.

   1. European Passenger Train Operations are typically organized into two separate
      business entities (operating companies and infrastructure managers) whose financial
      performance and public funding are closely intertwined with each other.
   2. In addition to direct funding, some of the Passenger Train Operations receive public
      funding that did not show up on the company’s balance sheet and therefore does not
      show up in the company’s financial statements.
   3. Although some Train Operating Companies may report a “profit”, this profit is
      generated through a large amount of public funding provide by the European
      countries.

       The comparison of the level of Public Funding for European Passenger
Railroads to that of Amtrak provided the following findings.

   4. For the time period studied (1995 to 2003), most European countries spent
      significantly higher levels of public funding on Passenger Train Operations than the
      U.S.
   5. The average subsidy provided to maintain and operate the infrastructure for
      European Passenger Train Operations is well above the subsidy level provided to
      Amtrak.
   6. Compared to the average subsidy for European Train Operating Companies, Amtrak’s
      State Corridor Services received higher subsidy levels while its NEC produced a
      positive cash flow.
   7. When the relative network sizes are taken into consideration, the annual subsidies for
      the European Passenger Train Operations are much higher than those for comparable
      Amtrak services.

                                             ii
INTRODUCTION

Purpose

      The purpose of this review was to examine the Public Subsidies provided to
European Passenger Train Operations and then compare these funding levels to that
of Amtrak.

Background
        There have been numerous claims made about the relative financial
performance of European Passenger Train Operations and the amount of Public
Funding these operations require to remain financially viable. A prime example of
this recently occurred in the February 28, 2008 edition of The Economist when it was
stated that the French TGV “lifted the railway (SNCF) to a profit of 695 million euros
in 2006.” Similar claims of European Passenger Train profitability have been made
during Congressional hearings related to Amtrak’s funding levels.

Methodology
       To examine the validity of these claims, we contracted with the European-
based BSL Management Consultants to complete an objective, comprehensive
assessment of the Public Funding provided for European Passenger Train Operations.
BSL is an internationally experienced consultancy in the areas of public
transportation, local rail transportation, and railway infrastructures. BSL has
extensive experience working with passenger railroads from around the world,
including European Passenger Train Operations, to benchmark their relative financial
and operating performance. Their knowledge of the unique characteristics of the
organizational structures and sources of data for each passenger operation enabled
BSL to prepare objective comparisons (i.e. “apples to apples”) of the Public Funding
levels provided to support passenger railroad operations in different countries.

Scope
       Data was collected on the Public Funding provided for European Passenger
Train Operations during the 1995 to 2006 time period from public available National
Economics Research Associates studies on European railroad funding for the
European Union as well as other public available sources. This data was used to
complete a detailed analysis of the Public Funding provided to a representative
sample of European Passenger Train Operations, which includes the major part of
the Western European Passenger Rail network and several passenger train operators
that boast of operational profitability. Public Funding includes all types of funding,
both “on-balance sheet” and “off-balance sheet” funding, for the operations of
passenger trains and the maintenance and ownership of the related infrastructure.


                                          1
FINDINGS:


Finding No. 1 - European Passenger Train Operations are typically
organized into two separate business entities (operating companies
and infrastructure managers) whose financial performance and public
funding are closely intertwined with each other.

Discussion:

        The methods used to provide Public Funding for European Passenger
Train Operations are, in large part, based upon the organizational structure of
these railroads. In contrast to Amtrak, European Passenger Train Operations are
typically organized as two separate corporate entities:
   1. a passenger train operator (i.e. “above the rail” train operations), and
   2. an infrastructure maintainer (i.e. maintenance and operation of tracks,
        facilities, etc.).
The methods and levels of Public Funding have a direct impact on the
profitability reported for each of these corporate entities.

       As illustrated in the following exhibit, the Public Funding and financial
performance of these two corporate entities are closely inter-related. This
exhibit also illustrates how the combination of this business model and the
methods of Public Funding support can lead to a misinterpretation of financial
                                                          reports. For example, the
                                                          financial performance of
                                                          the Train Operating
                                                          Company is a function of
                                                          not only its direct
                                                          operating expenses and
                                                          transportation related
                                                          revenues, but also the
                                                          public funding levels it
                                                          receives and the “user
                                                          fees” it is charged by the
                                                          infrastructure manager.
                                                          Consequently, a train
                                                          operating company is able
                                                          to report a profit even
                                                          when its total operating
                                                          expenses, which include
                                                          full infrastructure costs,
                                                          exceeds its transportation


                                         2
(i.e. passenger, freight, etc.) related revenue. Profits by the Train Operating
Companies can sometimes be grossly overstated because:

       •   Public Funding to the Train Operating Companies may be accounted
           for as revenue, and

       •   Public Funding to the Infrastructure Managers enables them to charge
           “user fees” to the Train Operating Companies that may be
           significantly lower than the actual infrastructure maintenance
           expenses.

A valid assessment of European Passenger Train profitability must take into
consideration the levels of Public Funding that are being provided to both the
Train Operating Company and the Infrastructure Manager.




                                         3
Finding No. 2 - In addition to direct funding, some of the
Passenger Train Operations receive public funding that did not show
up on the company’s balance sheet and therefore does not show up in
the company’s financial statements.

Discussion:

        BSL completed a detailed analysis of funding levels for six European
Passenger Train Operations (see Appendix I). The analysis revealed that four of
the six European Passenger Train Operations that they studied had received both
“on-balance sheet” and “off-balance sheet” public funding. Typically, the “on-
balance sheet” funding is provided for transport services, infrastructure
operations, and capital investments in rolling stock and infrastructure assets.
The “off-balance sheet” funding is typically provided for staff and pension
obligations, debt service, restructuring, and past capital investments. As
illustrated in the following table, from 1996 to 2006, the six European nations in
this study spent, on average, a combined total of $42 billion annually ($26.1
billion – on-balance sheet funding; $15.8 billion – off balance sheet funding) on
their national railroads.


                                   Network       Average Annual Public
                                     Size              Funding¹
                 Country                          on-balance      off-balance
                                   ['000 main
                                                      sheet           sheet
                                  track-miles]
                                                 [billion US$]   [billion US$]

                 Germany               36,3            11,6            11,2


                 France                30,5             5,5             4,4


                 United Kingdom        19,3             4,6              -


                 Spain                     9,2          1,6             0,1


                 Denmark                   2,1          0,9              -


                 Austria                   4,7          1,9             0,1


                 Total               102,1            26,1            15,8

                 1) average of 1996-2006




                                             4
Finding No. 3 - Although some European Train Operating
Companies may report a “profit”, this profit is generated through a
large amount of public funding provided by the European countries.

Discussion:

       BSL developed the following chart that illustrates the operating profits of
several European Train Operating Companies and the total public funding
provided for European Passenger Train Operations in each country on a dollar
per train mile basis. This financial presentation identifies the financial profit
reported by the train operating companies in 2006 and the average annual public
funding, including both on- and off- balance sheet funding, provided to railroads
during 1996 to 2006.


                                  Operating profit
                       2006, Train Operating Companies (TOCs)

US$
train-mile
         DSB             SNCF            DB             RENFE         Virgin Rail         OBB
         6,27
                        4,10
  5
                                        1,94            1,28            0,62            0,46
  0

  5

 10

 15
                                                           15,05          14,43
 20

 25                                                                                       22,76
             23,81

 30
                           31,88
 35
                                           36,78
 40
          DEN             FRA             GER             ESP             GBR             AUT



Note: Virgin Rail chosen as one example of about 20 different passenger train operators in the
UK (there are also several rolling stock companies and freight train Operators.)
Countries: DEN-Denmark, FRA-France, GER-Germany, ESP-Spain, GBR-Great Britain, AUT-Austria



                                                5
This chart illustrates that the reported profits of the European Train Operating
Companies are generated by and dependent upon the much higher public
subsidies. For example, DB reports profits of about $1.94 per train mile while
the railroad is receiving $36.78 in public funding. When public funding is taken
into consideration, DB Train Operations actually cost the German government
$34.88 per train mile. Similarly, passenger rail operations in the other five
European countries cost their governments between $13.77 to $27.78 per train
mile.




                                        6
Finding No. 4 - For the time period studied (1995-2003), most
European countries spent significantly higher levels of public funding
on Passenger Train Operations than the U.S.

       To obtain an overall perspective of the relative levels of public funding
that has been provided to rail passenger systems, the following chart compares
the total public funding provided to Amtrak with that provided to the various
European rail passenger systems over the nine year period from 1995 to 2003.
A nine year period was used for the comparison to avoid any disparities that
would arise from abnormally high or low funding that could occur in any given
budget period. The public funding includes both on-balance sheet and off-
balance sheet public funding and has been adjusted for the average currency
exchange rates for that time period (i.e. 1 Euro = $1.13 US).


                        Public Funding Contributions
                               to the Railroads
                              total 1995-2003
[bn US$]
       104

100



                75
  75
                        64



  50


                                29

  25
                                        17      17     16
                                                               11      10
                                                                                   6

   0
       GER     FRA     ITA     GBR     SUI     NED     AUT     SWE   Amtrak   DEN




                                        7
Finding No. 5 - The average subsidy provided to maintain and
operate the infrastructure for European Passenger Train Operations is
well above the subsidy level provided to Amtrak.

        To be able to make a valid comparison of subsidy levels, it is necessary to
compare the normalized subsidy levels for both infrastructure and train
operations. The Public Contribution for Amtrak’s infrastructure is based upon
actual FY ’06 capital expenditures and operating contributions for the Amtrak
owned infrastructure. The comparison of infrastructure support is provided on a
per main track-mile basis to normalize the costs by taking into consideration the
different sizes of the railroads’ infrastructures. As shown in the following chart
from BSL, the public contribution (i.e. subsidy) for Amtrak’s Infrastructure is
approximately 50% less than the average direct subsidy for railroad
infrastructure maintenance in European countries. It should be noted that this
comparison of public subsidy levels does not take into consideration the relative
“state of good repair” of each country’s infrastructure or the amount of funding
needed to maintain the infrastructure at a comparable condition.

            Public Budget Contributions for Infrastructure

  [1.000 US$/
  main track-mile]

                     685



     600




     400
                           353
                                 301    300
                                                                       Ø = 261


                                                197
     200    174     +50%
                                                       156    151
                                                                     119
                                                                             88



       0
           Amtrak    NED   SUI   ITA    AUT    DEN     SWE    GBR    GER     FRA




                                         8
Finding No. 6 - Compared to the subsidy levels for European Train
Operating Companies, Amtrak’s State Corridor Services received higher
subsidy levels while its NEC produced a positive cash flow.

    When comparing subsidies for passenger train operations, it is reasonable to
compare the European passenger train operating companies to that of Amtrak’s
NEC and State Corridor train operations. Amtrak’s NEC and State Corridor train
operations have operating parameters (e.g. service level, train frequency, consist
sizes, etc.) that are very similar to that of the European Passenger rail operators.
Amtrak’s Long Distance Trains were not included in these comparisons since the
European Passenger Railroads do not operate trains that have comparable
service levels, operating frequencies, trip lengths, or consist sizes.

    The following graph from BSL illustrates the total amount of public subsidy
provided to the European Passenger Railroads and to Amtrak’s NEC and State
Corridor trains on a US $ per train–mile basis. The European public funding has
been adjusted for the monetary exchange rate applicable for the time period of
the data base and the comparisons are made on a passenger train-mile basis to
take into consideration any differences in frequency of service and average trip
length. The graph illustrates that Amtrak’s NEC passenger train operations
provides a positive cash flow of $12.61 per train mile while its State Corridor
train operations require $27.31 per train mile in public subsidy, which is
significantly higher than that of the average subsidy for European passenger
train operations. It should be pointed out that Amtrak’s NEC passenger train
operations are not charged track access fees, which are typically charged to the
European Train Operating Companies.
                               Public Service Subsidies and Investment Subsidies
              [US$/            For Passenger Services (European Data @ 2003 Price)
       passenger train-mile]

      30
                       27,31
                                       State support

      25
                                       Federal support

      20                         18,44


      15                                 14,04
                 16,07                           12,53                                   Ø = 9,70
                                                         12,00
                                                                 10,66   10,37
      10
                                                                                 5,19
        5
                                                                                        2,08   2,00

        0
              NEC        SC      DEN      FRA    GER      ITA    GBR     AUT     SUI    SWE    NED
       -5


      -10


      -15   -12,61
                                                    9
Finding No. 7 - When the relative network sizes are taken into
consideration, the annual subsidies for the European Passenger Train
Operations are much higher than those for comparable Amtrak
services.

        The best measure of the relative levels of public funding is a measure
that:
    •     includes all types of public funding (i.e. on and off balance sheet),
    •     includes funding for both infrastructure and passenger service, and
    •     normalizes funding levels for differences in network size and operations.

     The following BSL chart, which takes into consideration these factors,
presents the total Public Funding provided to support Amtrak’s NEC and the total
Public Funding provided to support European Passenger Train Operations on a
cost per train-mile basis and a cost per main track-mile basis. Only the NEC is
included in this comparison for Amtrak since the Long Distance trains and the
State Corridor trains travel on Host Railroad owned tracks and do not fully share
in the cost of infrastructure maintenance. Similar to previous comparisons, the
1995 to 2003 time period was used to develop an average annual statistic and
the European funding levels were converted to US $ using the monetary
exchange rate applicable for the time period of the data base. The white bar for
the NEC indicates the proportion of Amtrak’s debt service that is applicable to the
NEC infrastructure and train operations. This chart illustrates the fact that the
average annual subsidies for European Railroads are much higher than the NEC
subsidies when network size is taken into consideration.

             Public Budget Contributions to the Railroads
CONCLUSIONS 1995-2003, annual average¹
                              per train-mile                      per main track-mile
completed on the public subsidy of SUI European Passenger Railroads and the history
of Amtrak’s public subsidy levels, it can be concluded that:
                                     NE D
    a) European Passenger Railroads operate at a financial loss and consequently
       require significant levels of pIT
                                       ubA lic funding, and
    b) The average annual subsidies      for European Passenger Railroads are much
                                      AU T
       higher than those for Amtrak.
                                                       DEN
           Ø = 20,60
                                                                                         Ø = 374
                                                       GER

                                                       FRA

                                                       GBR

                                                       SW E


        [US$/
                              18,5         14,4   APPENDIX
                                                    NE C   I      74   95
                                                                                                      [1.000 US$/
  train-mile²]                                                                                        main track-mile]
                        30       20       10       0          0         200      400        600

  1) Price level of 2003; 1 € = 1,13 US$ average annual exchange rate (EZB, 2003)
  2) Passenger and freight trains
  3) NEC only excluding debt services, white bar indicates if debt would be distributed proportionally to total cash flow; Source: OIG
                                                                  10
                        APPENDIX I

          Major Contributors to Report E-08-02


Name__________________________Title___________________

BSL Management Consultants

Dr. Heiner Bente              Managing Director
Klaus Wittmeier               Senior Consultant
Dr. Olaf Zeike                Senior Consultant
Nico Lindenau                 Principal

Amtak OIG

Calvin Evans                 Deputy IG, Inspect. & Eval.
Jim Simpson                  Sr. Dir, Inspections & Evaluations




                             11
          APPENDIX II


     Public Funding Levels of
European Passenger Railroads (II)

    BSL Management Consultants


         February 26, 2008




                12
